  

XAVIER BECERRA State of California
Attorney General DEPARTMENT OF JUSTICE

1515 CLAY STREET, 20TH FLOOR,
P.O. BOX 70550
OAKLAND, CA 94612-0550

Public: (510) 879-1300
Telephone: (510) 879-0756
Facsimile: (510) 622-2270

E-Mail: Joshua.Klein@doj.ca.gov

 

March 13, 2020

Mr. Scott S. Harris, Clerk

Supreme Court of the United States
1 First St., NE

Washington, DC 20543

RE: Native Wholesale Supply Co. v. California ex rel. Becerra, No. 19-985
Request for extension of time

Dear Mr. Harris:

The petition for a writ of certiorari in this case was filed on February 3, 2020. On March
5, the Court requested a response, which is currently due April 6. Pursuant to Rule 30.4,
respondent respectfully requests that the deadline for filing the response be extended by thirty
days, to May 6. An extension of time is necessary to allow not only for drafting the response but
also for thorough internal review, thus better enabling preparation of a response that respondent
believes would be most helpful to the Court.

Respectfully submitted,

G-A.t—

JOSHUA A. KLEIN
Deputy Solicitor General

For XAVIER BECERRA
Attorney General

cc: Randolph Henry Barnhouse, Esq.
